                                   OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM

                                                                          Date: 17 March 2002




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have stolen shipments of DRMO property
for NSF grants. Subject was the property screener for his ~niversity.~     Much of the equipment
showed up for sale at university auctions shortly after the subject reviewed the property lists. Our
subsequent investigation determined that the equipment made it to the university but that $
in auction proceeds were not properly credited for research and education.

Accordingly this case is closed.
'73
    B                                           NATIONAL SCIENCE FOUNDATION
                                                     4201 WILSON BOULEVARD
8                                                   ARLINGTON, VIRGINIA 22230




'       I             0mcEOF
I       /I
        I         INSPECTOR GENERAL




                    DATE:     '       October 3,1996
        I
\I      I
                    TO:               Case File No, I95100038

                    FROM:             -                 ,                       Investigations Section
iI                                                                           Investigations Sectic  .    m

        'I

        '1
/
                                                                         4

                    VIA:                  -             ,P m g e n t - i n - C h a r g e
I       /
                    RE:               Case Resolution


                    On October 2, 1995 we received an allegation that an NSF saeener and two shop
                    managers at                                           were diverting federal excess
                    property obtained under NSF grants for personal use and profit.

                    We conducted a site visit at      and were able to account for most of the property
                    acquired by the saeener and shop managers. Though we found no evidence of
                    personal diversion of property, we found that the screener was certifying documents
                    that were supposed to be signed by NSF Principle Investigators (PI),The saeener was
                    obtaining property not related to the NSF grants, such as 1auh;nmowersand tires, and
                    distributing it throughout the university instead of using it for the grants.

                    The saeener disposed of excess property through university sales and auctions. We
                    found that the university was not remitting proceeds (approximately $               from
                    these sales to the NSF grants for which the property was originally obtained. The
                    screener placed these funds into a general university account. The screener intended
                    to use these funds as salary by working as a part-time screener after retiring from

    I        11
                     Based on our recommendation,           Internal Audit Office conducted an internal
    ,I               review of its participation in the fedhal excess property program and its inventory
                     controls. IU Internal Audit provided the results of this review to us, and revoked the
    '        1       screener's authorization card. In addition, the university has remitted $       to the
    i
    11
                     chemistry department where the funds will be used for scientific research and
                     education.
Finally, we provided NSFs Division of Administrative Services @AS) with a systemic
review and recommendations concerning our findings,

This case is closed.
                                                                                                                 NATIONAL SCIENCE FOUNDATION
                                                                                                                          4201 WILSON BOULEVARD
                                                                                                                         ARLINGTON, VIRGINIA 22230




                     I1 'I




                         I
                                 I
                                                                  h




                                                          MEMORANDUM
                                                                      .        +   &'




                     !
                     I
                                 I1
                                 /I
                     '           /I
                                 'I
                                                 -        DATE:                             September 26,-1996                            -    ,
                                                              *   %
                                                                      .*
                                                          TO: "                    -                        . A~irkror.Division of Administrative Serviw DAS)
                                                                                                 -- .   F



                 1 /I                                     FROM:                             I,              ,, Upy                                           ations ions Section
                                                                                                                              ~ ~ L ~ ~ L - L ~ ~ - L L ~ ~ S ,

                l;                                                         "   -        "
                                                                                                                 4
             I  I                                         RE.
                                                                                                                              *

                                                                                            Systemic Review of the Federal Excess Prop&                          prograin       -
             / 'I
             I               I
                                                                                                                                                                                                     -      ,

                             I
                             I                                                                              "s


             I           I
                                                          Over the past year, NSF-OIG has received three separate allegations regkding university
                                                 -,        employee^ diverting federal excess property obtained under NSF grants.' This program
                                                      '   provides NSF grantees, mainly universities, with free property to be used for scientific
            iI                                            education and research. We have found, however, that participants have used a large portion
                                                          of acquired property for non-scientific purposes, and have not used the funds generated by
                     I
                     1
                                                          the sale of this property for scientific research or education. We have also identified systemic
                                                                                                                                                                                                                 ,




                                                          deficiencies that increase the opportunity for fraud, wake, and abuse in this progmm. This
        I            I
                                                          review discusses these deficiencies and problems and recommends methods-to ensure that
                                                                                                                                                                                                    . *-
        ' I
                                                                                                                                                                            ,       .               * "
        I
                 /I
                                                          participants use this program for its defined purposes.                                                                                   %



                                                                                                                                                                                        I   ,

                                                                                                                                          -A   5.   I?   r
                 I                                        BACKGROUND TO THE FEDERAL EXCESS PROPERTY PROGRAM                                                                                             -
                 I

                                                                                                                     '    1       ,   r


                                                          ~ e d e r dexcas property includes all types of personal equipment and property, new or used,
    I        /I                         6
                                                          that is okned by the Federal Government but no longer needed by a holding agency, but still



'I
    :I
    ;       "I                          -

                                       --
                                                          has additional useful life. At .the, Department of Defense (DoD), propnty not in use is
                                                          relocated to the Defense Reutilization and Marketing Offices (DRMO) for redistribution by
                                                          the holding agency? This property is initially redistributed among DoD components. If no
                                                          PODcomponent claims it, it becomes excess property' and is released to the General Senices
                                                                                                    .- * .
                                                                                                                                                                                                                 .




            /I                        *--J
                                             +            Adminisiration
                                                          .
                                                                            (GSA).                               &       1          . ,. .--/                        -                                          .-
                                                          1
                                                                  We are currently working with FBI and DoD agenr. to resolve w of these cases, and have comp1eted
I
        'I
        'I
                                                          one investigation.

i                                                         2

                                                          3
                                                                               DRMOs are located at various U.S. military bases.
                                                                               41 C.F.R. 8 101-43.001-6.
                                                                                                                                                                                                *
                  GSA, working out of the DRMO,uses a hierarchical order to redistribute this property. Non-
                  DoD-federal agencies have the first right to obtain equipment. If not selected by these
                  agencies, the property can then be obtained by non-profit institutions receiving federal
                  research funding, such as NSF grantees. Following these institutions, in order of right to first
                  choice of surplus property, are state governments, local gov&ments, and, f i d y , private
                  companies and citizens.

                  NSF is authorized to transfer federal excess property without reimbursement to GSA or the
                  former holding agency.' NSF grantees can enter the program by submitting a written request
                  to NSFs Properrg S d o n in the Division of Administrative Services (DAS). A participating
                  institution then designates an employee, called a screenet, to physically inspect property at
                  the DRMO, tag it (thereby reserving it for the institution), and eventually ship it to the
                  institution. Both DAS and GSA must approve employees to be screeners. Screeners reserve
                  the property while at the DRMO or by submitting a j d c a t i o n letta and an SF-122,
                                    -
                  'Standard Form Transfer Order Excess Personal Property.* The DAS property officer must
                  approve the SF-122. The grantee must send a receipt cop^ of the SF122 to DAS,m n g
                  that the university has received the ptoperty listed on the form.

                   Grantees can acquire excess property (at no cost) that has a combined value that is less than
                   or equal to the amount of funding they receive under their grant(s).' Any requests made
                  .above this. amount require additional justification. Although excess property is secured
                   without cost, the participant is responsible for shipping costs. In addition, receipt of property
                   is to be grant specific, and participants may not stockpile equipment.
                               '%

                  NSF retains title to the equipment until it is delivered. Upon receipt of the SE122 at DAS,
                  title to the property transfers to the university, subject to the understanding that the
                  participant will use the property for the scientific research or education purposes of the NSF
                  grant. When the property becomes useless, the participant may dispose of it at its.discretion.
                  However, participants are to use the proceeds from the disposal of the equipment solely for
                  scientific research or education purposes.'

                  Since 1990, the federal excess property program has increased its volume from $5 million to
                  $50 million dollars worth of property transfers to NSF grantees. This increase is largely due
                  to DAS's promotion of the program as a way to alleviate grantee expenses and increase the
                  quality of graduate and undergraduate education (e.g. by providing equipment for studemt
                  laboratories and shops). _ a




     -.   .       4      NSF grantees are limited in the     of federal excess property they can obtain through h e program,
                                                                                              twcominon &. .41*.ER. ;; .
.
                                                          w obbn ' g e n d p ~ r p o s kprop*
    C .
                  Fur ~ampk,-gmn&a'at    51ot d u t l ~ b m
                  10143.314(b)(Z)(iv).
                  I      NSF Grant Policy Manual, 95-26,5463.                                                        1




                  6
              '
                         NSF Grant Policy Manual, 95-26.5465.
                  7      NSF Grant Policy Manual, 95-26,546.8.
                I
                1
                                      MISUSE OF SCIENTIFIC RESOURCES
                                      Our investigations have found that universities used NSF grants to acquire federal                          excess
                                      property but that much of this property was not used to support those spedfic NSF projects.
                                      In addition, excess property acquired during the terms of these NSF grants was regularly sold
                       I

                       11
                                      by these universities but the proceeds from these sales were not used for scientifir research or
                       1              education. For example, in one of our cases, we found that a university submitted rep&ted
            I                         requests for large amounts of excess property to DAS. We estimate that approxikat&Y 50%
                                      of this acquired property was nonscientific in nature or used for purposes not related to the
                                      NSF grants. However, the NSF program officer and the DAS property manager approved
                                      many of these requests, which included property such as truck tires, lumber, and mailboxes.
                                      Furthennore, we found that this university's property manager disposed of large amounts of
        1                             unused excess property at auctions, and placed the funds from these sales (in excess of
                                                 in a separate university account which would pay him for screening property after
        1I
        1
                                      he retired from flillatirne university employment. The funds should have been used for
                                      scientific research and education.
        I                             Recommendation:                                                             .   I




                                      We recommend that DAS require the authorized organizational representatives from
    0                                 participating institutions to agree in writing to the following before being allowed to
                /1'I                  designate a saeener: Participating institutions must agree to use all excess property for the                        .
                /i                    purposes of the grant during the period of the award, and if the property is sold during that
                 I                    ~eriod,the proceeds from the sale of the excess property will be treated as program income
                 \
                                      and 'added to the funds committed to the project. by NSF and used to fuaher project
                                      ~bjectives.~   Thereafter, proceeds from the sale of the property should be used solely for
    I
                                      scientific reseiwch and edu~ation.'~  In addition, we recommend that all current partidpants
                                      in this program be contacted and agree to these conditions, in writing, in order to continue                             I
    i                                                                                                                                                          II
    I
    I
                                      participating in this program.


                                      INADEQUATE OR LACK OF @JVENTORY CONTROLS BY PARTICIPANTS

                                      In two of our cases, the universities were unable to provide us with current and complete
            I
                                      inventories. Both universities tacked policies and guidelines regarding the inventory process
                                      for federal excess property. Although we were eventually able to verify (through witness

                                                                           -
                                      interviews) that the universities received the property, neither university had a tracking
            I



'I
I
            'I
            I
                            .     .
                                ..3   -+                ,  , -,.    -         - ..                 .  . . _ . - _.. . *-*-
            I
                                      8
                                           * As a result of our investigation, the university agreed to return            to the projects funded by the
                                      NSF grants.
                                      9       -1     (10/95),Art. 19(b).
I                                      10     NSF Grant Policy Manual, 9526,546.8. . - . -                       Lb       .
1
       system in place to process the newly acquired property. ,Inone case, for example, we were
       unable to quantify the amount of federal excess property that the university disposed of, or
       the amount of proceeds that the university received through the disposal of that property,

       Recommendation:                                                                                        \-'
       DAS should require that saeeners annually certify a) the amount of excess property that they
       have acquired for NSF grants in the preceding year; b) that they have exercised careful
       stewardship over the excess property;" and c) that during the periods of the grants all ex-
       property and proceeds from the property were used for the purposes of the NSF grants, and
       thereafter for scientific research and education. Within this document, saeeners should also
       certify that all of the statements they have made are accurate, true, complete, and to the beet
       of their kn~wledge.'~


       LACK OF SEGREGATION OF SCREENER DUTIES

       In two of the cases, the university saeeners were employed full-time as property managers
       and were, consequently, solely responsible for the screening, ordering, acquisition, delivery,
       distribution, inventory, sale and/or disposal of all excess property. In one case this led to
       abuse' of the system and possible diversion of excess property while in the other case (where
       we found no diversion of property) it led to the appearance of abuse.



       DAS    should insist on a segregation of duties for its screeners. DAS should not allow
       participants to designate property managers as screeners. In addition, DAS should mandate
       that saeeners have the appropriate technical expertise to screen for property required by NSF
       PIS,                                 ..?
                                                                                            1




       IMPROPER CERTIFICATIONS AND AUTHORIZATIONS ON FORMS
       In some i n s t a b , PIS authorized screeners to sign their names on certifications on the SF-122
       forms and on justification letters in order to acquire property. In one case, the saeener and
       other employees indiscriminately chose NSF grants to charge for the acquisition of property.
       As a result, PIS were not aware'of the type or amount of equipment being procured under


--.-
       -    -   -         -       -


                                                -4
                                                        .- _. . - --".-.,            -- .       ..   .
                                                                                                   . .- --&?
                                                                                                         :

       II
               NSF Grant Policy Manual, 95026,546.9 states: While no particular type of classification of accounts
       or inventory system is required, NSF expeccs responsible officials of the grantee organization will exedse
       car& stewardship of excess government personal property acquired in support of projects u n d d e n with
       NSFs financial assistance.'
       IZ           If requested, we will be glad to provide sample certificationlanguage to DAS.
               their grants. In addition, partidpanes procured large amounts of property not directly related
               to NSF grants,
                                                                -
               Recommendation:

               Per NSFs GPM,PIS are required to sign their justification letters and SF-122forms.u DAS
               should enforce this rule by requiring that PIS, not screeners, be solely responsible for signing
               the justification letters and receipt copies of the SF-122.


               LACK OF FAMILIARITY WITH PROGRAM RULES AND REGULATIONS
               During our interviews with employees of participating institutions, we determined that they
               were not knowledgeable about the rules and regulations of the Metal excess property
               program. In addition, none of these employees had any guides, booklets, or other documents
               describing these relevant rules and regulations.

               Recommendation:
     1         DAS should mandate that all saeeners read the program rules and certify that they
               understand these rules. In addition, DAS should brief all p d n e n t NSF personnel and
61             participants about the program rules and regulations, DAS or the participating institutions
               should distribute existing program rules (found in NSFs GPM) to all saeeners.                                  I
                                                                                                                              I

          I'
               CONCLUSION                                                                                                 I
     I

     I         The federal excess property program is a valuable resource to NSF grantees. As a result of
                                                                                                                          I

                                                                                                                          I
                                                                                                                          I

     1   11    our investigations we identified several program deficiencies which have contributed to the

     1
               misuse and abuse of this resource. Consequently, we have made recommendations which, if
               implemented, will help ensure that excess property is being used for science and that              '
                                                                                                                      i
                                                                                                                      I
               partidpants are using the proceeds from the sale of excess property for the purposes of the
         /I    grant or for other scientific research and education.                                                  I
                                                                                                                      I
                                                                                                                      I
     I         Please advise us of the steps taken by your office in response to this review and its
               recommendations.                                                                                       1



it             I1     NSF Grant Policy Manual, 95-26,5463 (0.
